2311 Douglas Street E-Mail Address:

COCKLE

Legal Briefs

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.

FEDERAL REPUBLIC OF GERMANY, a foreign state,
and STIFTUNG PREUSSICHER KULTURBESITZ,
Petitioners,
v.
ALAN PHILIPP, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 16th day of September, 2019, send
out from Omaha, NE | package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

DAVID L. HALL JONATHAN M. FREIMAN
WIGGIN AND DANA LLP Counsel of Record
Two Liberty Place TAHLIA TOWNSEND
50S. 16th Street BENJAMIN M. DANIELS
Suite 2925 DAVID R. ROTH
Philadelphia, PA 19102 WIGGIN AND DANA LLP
(215) 998-8310 265 Church Street

P.O. Box 1832
Counsel for Petitioners New Haven, CT 06508-1832

(203) 498-4400

jfreiman@wiggin.com

Subscribed and sworn to before me this 16th day of September, 2019.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

create, » EC Cle Qudswh, Cale

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38663

 
SERVICE LIST

Nicholas M. O’ Donnell
Sullivan & Worcester LLP
One Post Office Square
Boston, MA 02109
Telephone: (617) 338-2800
Facsimile: (617) 338-2880
Email: nodonnell@sandw.com

Attorney of Record for Respondents
Alan Philipp, Gerald G. Stiebel, and
Jed R. Leiber
